No.
IN THE
SUPRPME COURT OF THE UNITED STATES
Rosemary Garity—PETITIONER
v
USPS PMG BRENNAN—RESPONDENT(S)
PROOF OF SERVICE
I, Rosemary Garity, do swear or declare that on this date, August 17, 2021 as
required by U.S. Supreme Court Rule 29,1 have served the enclosed PETITION
FOR WRIT OF CERTIORARI on each party to the above proceeding or that party’s
counsel, and on every other person required to be served, by email or U.S. Mail as
indicated.
The names and addresses of those served are as follows:
BRIANNA SMITH
AUSA
501 Las Vegas Blvd S., Suite 1100
Las Vegas, Nevada 89101

By Email: Brianna.smith@usdoj.gov

Solicitor General of the United States,
Department of Justice,
950 Pennsylvania Ave., N.W., Room 5614,
Washington, D.C. 20530-0001.

By U.S. mail

Postmaster General of the United States
475 L’Enfant Plaza, S.W. Room 4012
Washington DC 20260-2200

By U.S. mail

I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 17, 2021.
s/Rosemary Garity
Rosemary Garity

